OFFICE OF INSPECTOR GENERAL
 for the Millennium Challenge Corporation




FOLLOW-UP AUDIT OF THE
MILLENNIUM CHALLENGE
CORPORATION’S CONTRACT
AWARD PROCESS
AUDIT REPORT NO. M-000-07-003-P
September 6, 2007




WASHINGTON, D.C.
Office of Inspector General
 for the
Millennium Challenge Corporation


September 6, 2007


Ambassador John Danilovich
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Ambassador Danilovich:

This letter transmits the Office of Inspector General’s final report on the Follow-up Audit of the
Millennium Challenge Corporation’s Contract Award Process for your review and comments.
Although there were no recommendations for your action, we did consider your comments to
the draft report and have included those comments in their entirety in Appendix II of this report.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,


John M. Phee /s/
Assistant Inspector General/Millennium Challenge Corporation
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

Evaluation of Management Comments ......................................................................... 7

Appendix I – Scope and Methodology .......................................................................... 8

Appendix II – Management Comments ......................................................................... 9
SUMMARY OF RESULTS
This follow-up audit was conducted to determine whether the Millennium Challenge
Corporation (MCC) took appropriate corrective actions on nine recommendations made
by the Office of Inspector General (OIG) in the Audit of the Millennium Challenge
Corporation’s Contract Award Process, Audit Report No. M-000-06-001-P, October 11,
2005.

In response to the recommendations from the prior audit report, MCC acknowledged the
applicability of the Federal Acquisition Regulation (FAR) and has taken actions to
incorporate the FAR into its procurement operations. These actions included (1)
strengthening its small business program by developing a Small Business Program
Handbook; (2) establishing small business procurement goals; and (3) reporting its
contracting actions to a centralized Federal database so that progress toward goal
achievement can be assessed (see pages 3 and 4).

MCC improved its controls in the contracting process. It developed a requirement and
standard formats for justifications related to sole-source procurements to help ensure
that the need for sole-source contracts was warranted and properly authorized. It
clarified the roles and responsibilities of MCC officials in the procurement process to
help prevent unauthorized contracting actions (see pages 4 and 5).

The results of this follow-up audit show that MCC has taken appropriate corrective action
on each of the nine recommendations from the previous audit. Thus, the OIG has no
additional recommendations at this time.




                                                                                       1
BACKGROUND
In October 2005, the Assistant Inspector General for the Millennium Challenge
Corporation (MCC) issued an audit report entitled Audit of the Millennium Challenge
Corporation’s Contract Award Process. Overall, the report concluded that MCC had
complied with certain requirements of the Federal Acquisition Regulation (FAR).
However, the report identified several areas for further improvements:

   •   MCC believed there was flexibility in the applicability of Federal procurement
       regulations to MCC,

   •   MCC did not always provide adequate and sufficient documentation for its sole-
       source procurements,

   •   MCC nonprocurement personnel did not always follow procurement regulations
       or their actions created the appearance of partiality,

   •   MCC had not established policies and procedures regarding the use of personal
       services contractors (PSCs), and

   •   MCC allowed a non-US citizen to work at its headquarters without ensuring that
       the individual had eligibility to work in the United States.

The Office of Inspector General (OIG) issued nine recommendations to correct these
deficiencies. MCC concurred with all nine recommendations and agreed to implement
corrective actions to address them. It is the responsibility of MCC to determine when
satisfactory final action on the audit recommendations has been achieved. MCC
communicates to the OIG when the final actions have occurred.


AUDIT OBJECTIVE

This follow-up audit was conducted to determine whether MCC had taken appropriate
corrective actions on nine recommendations made by the OIG in the Audit of the
Millennium Challenge Corporation’s Contract Award Process, Audit Report No. M-000-
06-001-P, October 11, 2005.

This follow-up audit was conducted to answer the following question:

Did the Millennium Challenge Corporation take corrective actions to justify final
actions on the recommendations from the Audit of the Millennium Challenge
Corporation’s Contract Award Process, Audit Report No. M-000-06-001-P, October
11, 2005?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                   2
AUDIT FINDINGS
MCC has taken appropriate actions to justify final action (i.e., justify closure of
recommendation) on all nine recommendations made by the OIG in Audit of the
Millennium Challenge Corporation’s Contract Award Process, October 11, 2005.
Generally, the nine recommendations addressed noncompliance with laws and
regulations, such as the FAR and the Small Business Act, and the OIG recommended
that MCC develop policies and procedures to help ensure future compliance. Detailed
below are each of the recommendations and a summary of the work done in this audit
by the OIG to identify MCC’s actions to address the recommendations. Each of the
summaries contains an OIG conclusion as to whether the actions constitute final action
on the recommendations.

Recommendation No. 1: We recommend that the Millennium Challenge Corporation
prepare a memorandum acknowledging applicability of Federal procurement laws and
regulations to MCC domestic operations and distribute the memorandum to all MCC
staff.

In response to Recommendation No. 1, MCC issued a memorandum on October 24,
2005, to all staff reemphasizing that MCC follows the FAR as a matter of law. Further, in
a discussion with procurement officials, MCC pointed out that the Procurement
Operating Policies that augment the FAR were posted on the MCC Web site, and all
MCC employees have access to this information. The audit work related to the other
recommendations—in particular, with regard to small business programs and sole-
source acquisitions—showed that MCC was following the FAR. The OIG believes the
actions taken by MCC were sufficient to constitute final action to address the
recommendation.

Recommendation No. 2: We recommend that the Millennium Challenge Corporation
prepare and implement a business and economic development program for its domestic
procurements that provides consistent guidance and establishes internal guidelines for
its contracting and program personnel to implement the laws and regulations concerning
procurement preference programs.

In response to Recommendation No. 2, MCC issued the Small Business Program
Handbook in October 2006, which acknowledged the applicability of FAR, Part 19,
“Small Business Programs,” and augmented these regulations. The Handbook includes
guidance on the roles and responsibilities of procurement officials in (1) implementing
MCC’s small business program, (2) preparing the procurement forecast to identify
planned procurements and update the Small Business Administration (SBA), and (3)
developing the annual procurement preference goals. The OIG believes that the actions
taken by MCC were sufficient to constitute final action to address the recommendation.

Recommendation No. 3: We recommend that the Millennium Challenge Corporation
through negotiation with the Small Business Administration (SBA) establishes annual
performance preference goals.




                                                                                       3
MCC established small business procurement goals on January 30, 2006. Its goals
coincide with the minimum statutory small business procurement goals by percentage of
dollars expended for contracts by Federal agencies:

    •    23 percent of contracts for small businesses,
    •    5 percent of contracts for women-owned small businesses,
    •    5 percent for small disadvantaged businesses,
    •    3 percent for HUBZone 1 small businesses, and
    •    3 percent for service-disabled veteran-owned small business.

The SBA’s 8(a) Business Development Program does not have a statutory procurement
goal. In consultation with the SBA, MCC established a goal of 3 percent. MCC contacted
and obtained approval of the SBA for its required goals. The OIG believes that the
actions taken by MCC were sufficient to constitute final action to address the
recommendation.

Recommendation No. 4: We recommend that the Millennium Challenge Corporation
establish a plan, including implementation dates, for installing a contract information
reporting system to provide information to the Federal Procurement Data System.

MCC commenced coding its contract information into the Federal Procurement Data
System (FPDS) on October 1, 2005, and continued to do so as evidenced by the FPDS
Register reports obtained during the audit. 2 To validate the information input into FPDS,
the OIG selected a judgmental sample of data input and found that the coding was
accurate. The OIG believes that the actions taken by MCC were sufficient to constitute
final action to address the recommendation.

Recommendation No. 5: We recommend that the Millennium Challenge Corporation
establish procurement policies and procedures that contain specific requirements for the
use of sole source acquisitions, including what elements must be contained in the sole
source justification and in contract file documentation such as (1) specific identification of
how the contractor was chosen, (2) what attempts were made to find other sources and
what other sources were contacted, and (3) identifying pricing information obtained from
similar sources.

MCC established policies and procedures for sole-source acquisitions in its Procurement
Operating Procedures. These policies and procedures incorporated the requirements of
FAR, Subpart 6.3, “Other Than Full and Open Competition,” and depending on the
contract dollar amount, included two standard formats for Justification of Other than Full
and Open Competition. The justification for contracts exceeding $100,000 included a
description of MCC’s efforts in soliciting as many sources as possible and the market
research conducted. For contracts of $100,000 or less, MCC uses FAR’s simplified
acquisition procedures, which do not contain the same competitive requirements as
large-dollar acquisitions. Both justifications require the contracting officer to determine

1
  The HUBZone (Historically Underutilized Business Zone) Empowerment Contracting Program provides
Federal contracting opportunities for qualified small businesses located in distressed areas.
2
   MCC met the intent of the OIG’s recommendation by providing information to the Federal Procurement
Data System although it did not establish a plan or install a contract information reporting system to do so.
MCC did not believe that these intermediate steps were necessary because FPDS could be immediately
and readily accessed through the FPDS Web site.


                                                                                                           4
and certify that the anticipated cost to the Government will be fair and reasonable. The
OIG believes that the actions taken by MCC were sufficient to constitute final action to
address the recommendation.

To validate that MCC was complying with its policy on sole-source acquisitions, the OIG
selected and reviewed a judgmental sample of five sole-source contract actions relating to
three contracts. It found that MCC had completed a written sole-source justification for
each of the three contracts. 3 The justifications detailed the solicitation process and market
research and contained the contracting officer’s certification that the pricing was fair and
reasonable. As such, MCC complied with its policy on sole-source acquisitions for the
contract actions reviewed.

Recommendation No. 6: We recommend that the Millennium Challenge Corporation
establish clear written policies—to be incorporated into existing in-house training
courses—that delineate what pre-award and solicitation activities personnel can engage
in and what specific actions they must avoid.

MCC incorporated into its Contracting Officer Technical Representative (COTR) training
course the acquisition responsibilities of the contracting officer and the COTR. The
training course identifies the limitations of the COTR and specifically states that “As a
COTR, you have no authority to enter into contracts, task/call orders or purchase orders
and you have no authority to modify the same.” This recommendation was made in
October 2005, and MCC’s procurement operations have since evolved. MCC now
accepts that the FAR applies to its domestic procurement operations. The FAR contains
detailed guidance on the contracting authority of agency officials in Subpart 1.6, “Career
Development, Contracting Authority, and Responsibilities.” The OIG believes that the
actions taken by MCC were sufficient to constitute final action to address the
recommendation.

Recommendation No. 7: We recommend that the Millennium Challenge Corporation
decline to exercise the option years for the staff recruitment blanket purchase agreement
cited in the audit report.

On March 13, 2006, MCC sent a letter to the staff recruitment firm declining to exercise
the option years beyond the base year contract. The OIG believes that the actions taken
by MCC were sufficient to constitute final action to address the recommendation.

Recommendation No. 8: We recommend that the Millennium Challenge Corporation
establish a policy covering contracting for personal services contracts (PSCs) that
identifies any limitations on a PSC’s duties, salaries (including negotiation and
computation), and benefits.

In response to this recommendation, MCC formally established a policy in January 2006
in its Procurement Operating Procedures (chapter 37) that covered contracting for
PSCs. The policy identified limitations on PSCs’ duties, salaries, and benefits. The OIG


3
 The sample universe consisted of client-identified sole-source contracts from February 2006, the date of
policy inception, to May 2007, the date of the OIG request. The judgmental sample consisted of the high-
dollar contract and related contract actions as well as two other contracts totaling $1.09 million, or 47
percent of the total dollar amount of contract actions during the period reviewed.


                                                                                                       5
believes that the actions taken by MCC were sufficient to constitute final action to
address the recommendation.

In addition, to test the reasonableness of the established limitations, the OIG compared
MCC’s policies with other U.S. Government international development agencies
(namely, the State Department and USAID) to determine whether MCC’s PSC policy
was comparable to theirs. Based on a comparative analysis, the OIG concluded that
MCC’s PSC policy was comparable to these other agencies’ PSC policies in terms of
duties, salaries, and benefits.

Recommendation No. 9: We recommend that the Millennium Challenge Corporation
develop policy and procedures to require documentation of the work status of non-citizen
individuals to perform work for MCC in the United States.

To address this recommendation, MCC signed a contract with My Biz, a firm that
processes all contractors’ applications. As part of the My Biz requirements, all applicants
must submit a notarized and completed I-9 form, which is an employment eligibility
verification form required by the U.S. Immigration Reform and Control Act. The OIG
believes that the actions taken by MCC were sufficient to constitute final action to
address the recommendation.

In addition, the OIG reviewed MCC’s contract with My Biz to determine whether the
contract specifically required My Biz to verify applicants’ employment eligibility. Based on
the review, the OIG determined that the contract satisfied this requirement.

Further, the OIG judgmentally selected five contractors’ applications processed by My
Biz to determine whether the required I-9 form was processed as part of the application
process. The OIG found that all applicants had submitted this required form.




                                                                                          6
EVALUATION OF
MANAGEMENT COMMENTS
Management concurred that all prior recommendations had been addressed and
appreciated the support of the Office of Inspector General for the actions that the MCC
had taken to address the nine recommendations.




                                                                                     7
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Assistant Inspector General for the Millennium Challenge Corporation (MCC)
conducted this follow-up audit of MCC’s contract award process in accordance with
generally accepted auditing standards.

In conducting this follow-up audit, the audit team assessed MCC’s adherence to select
requirements of the Federal Acquisition Regulation (FAR) during the timeframe of
October 2005 through June 2007. The audit fieldwork was conducted from May 15,
2007, through June 28, 2007, at MCC headquarters in Washington, DC.

Methodology
In planning and performing the audit work, the audit team conducted interviews with
MCC officials in the procurement department. These interviews were conducted to
obtain and identify relevant information on management actions taken to address the
nine recommendations in a prior audit report. The audit team also interviewed an official
in MCC’s Security Office to assess how MCC determined the eligibility of personal
services contractors (PSCs) to work in the United States.

In addition, the audit team performed the following steps:

•   Identified and judgmentally selected three sole-source procurements to ensure that
    MCC complied with the FAR,

•   Reviewed MCC data input into the Federal Procurement Data System to ensure their
    accuracy,

•   Reviewed and compared MCC’s policies and procedures on PSCs with those of
    other judgmentally selected U.S. Government international development agencies,

•   Judgmentally selected five consultants’ contracts and reviewed related documents to
    determine MCC’s compliance with its policies on PSCs, and

•   Interviewed personnel from the Small Business Administration to obtain information
    on its requirements for Federal agencies.




                                                                                       8
                                                                           APPENDIX II



MANAGEMENT COMMENTS



MEMORANDUM                                                        August 24, 2007


TO:           John Phee
              Assistant Inspector General for the Millennium Challenge Corporation

FROM:         Michael Casella /s/
              Deputy Vice President for Administration and Finance

SUBJECT:      MCC Management Comments on Follow-up Audit of the Millennium
              Challenge Corporation’s Contract Award Process

The MCC appreciates the opportunity to respond to the text and recommendations of this
follow-up audit. The MCC concurs with the findings of the audit, and appreciates the
support of the Office of the Inspector General for the actions that the MCC has taken to
address the nine recommendations contained in the original audit. The MCC looks
forward to continued cooperation with the OIG as we work to maintain a compliant and
effective contract awards process.




                                                                                       9
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
